<html>
<title> - H.R. 1370, THE REFUGE CONCESSION BILL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 H.R. 1370, THE REFUGE CONCESSION BILL
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 20, 2001
                               __________

                           Serial No. 107-61
                               __________

           Printed for the use of the Committee on Resources








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
75-254                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 20, 2001...............................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., A Delegate to Congress from 
      American Samoa.............................................     5
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................     1
        Prepared statement of....................................     2
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................     2
        Prepared statement of....................................     4
    Underwood, Hon. Robert A., a Delegate to Congress from Guam, 
      prepared statement of......................................     5

Statement of Witnesses:
    Ashe, Daniel M., Chief, National Wildlife Refuge System, U.S. 
      Department of the Interior.................................     6
        Prepared statement of....................................     7
    Campbell, Chip, President, Okefenokee Adventures, Okefenokee 
      National Wildlife Refuge Concessionaire....................    14
        Prepared statement of....................................    17
    Hirsche, Evan M., President, National Wildlife Refuge 
      Association................................................    10
        Prepared statement of....................................    12

Additional materials supplied:
    Hoffman, Gerald L., President, Tarpon Bay Recreation, Inc., 
      Sanibel, Florida, Letter submitted for the record..........    36













      LEGISLATIVE HEARING ON H.R. 1370, THE REFUGE CONCESSION BILL

                              ----------                              


                      Thursday, September 20, 2001
                     U.S. House of Representatives
      Subcommittee on Fisheries Conservation, Wildlife and Oceans
                         Committee on Resources
                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
Room 1324, Longworth House Office Building, Hon. Walter Jones 
presiding.

 STATEMENT OF THE HON. WALTER JONES, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Thank you. We are going to begin the hearing, 
and I am serving as temporary Chairman substituting for Mr. 
Wayne Gilchrest.
    I would like to open with some prepared remarks. I 
certainly want to first thank the panel and the ranking member, 
Mr. Underwood, who will be here shortly. So I will begin my 
prepared remarks.
    First of all, good afternoon. I am pleased to convene this 
hearing on H.R. 1370, a bill introduced by our distinguished 
colleague from Indiana, Mark Souder, to establish a new policy 
for those concessionaires within our National Wildlife Refuge 
System.
    While anyone who has visited a national park is quite 
familiar with the many valuable services provided by private 
commercial concessionaires, there is only a handful of refuges 
where the public is offered the opportunity to rent a canoe, to 
ride a ferry, or to enjoy the thrill of traveling over a snow-
covered landscape on a horsedrawn sleigh. In fact, there are 
fewer than 20 refuges that have some kind of concession 
services.
    These services vary greatly; however, they have certain 
common elements. For example, the title to all property within 
the Refuge System is held by the Federal Government. In 
addition, there is no statutory provision which allows a 
concessionaire to be given any credit or compensation for 
spending any money to repair, maintain, or improve the 
buildings they use to enhance the public refuge viewing 
experience.
    Sadly, with a maintenance backlog in excess of $800 
million, the U.S. Fish and Wildlife Service lacks the resources 
and the motivation to maintain these properties. The net result 
is that most of the buildings utilized by concessionaires are 
in fair to poor condition, and there is no incentive for refuge 
managers to encourage additional commercial enterprises within 
the system.
    H.R. 1370 will establish a new policy for the upkeep and 
maintenance of property used by refuge concessionaires.
    I look forward to hearing from our witnesses on how this 
legislation will provide for better-maintained and safer 
recreational opportunities, allowing expenses to be treated as 
compensation by concessionaires and not undermine the National 
Wildlife Refuge Fund.
    If the ranking member were here at this time, I would yield 
time to him to make an opening statement.
    At this time, I ask unanimous consent that Mr. Souder be 
allowed to sit with the Subcommittee today.
    I hear no objection.
    Mr. Souder?
    [The prepared statement of Mr. Jones follows:]

 Statement of the Honorable Walter B. Jones, Jr. , A Representative in 
               Congress from the State of North Carolina

    Good afternoon, I am pleased to convene this Hearing on H. R. 1370, 
a bill introduced by our distinguished colleague from Indiana, Mark 
Souder, to establish a new policy for those concessionaires within our 
National Wildlife Refuge System.
    While anyone who has visited a National Park is quite familiar with 
the many valuable services provided by private commercial 
concessionaires, there are only a handful of refuges where the public 
is offered the opportunity to rent a canoe, to ride a ferry or to enjoy 
the thrill of traveling over a snow covered landscape on a horse drawn 
sleigh. In fact, there are less than 20 refuges that have some type of 
concession services.
    These services vary greatly. However, there are certain common 
elements. For instance, the title to all property within the Refuge 
System is held by the Federal government. In addition, there is no 
statutory provision which allows a concessionaire to be given any 
credit or compensation for spending any money to repair, maintain or 
improve the buildings they use to enhance the public's refuge viewing 
experience.
    Sadly, with a maintenance backlog in excess of $800 million, the 
U.S. Fish and Wildlife Service lacks the resources and the motivation 
to maintain this property. The net result is that most of the buildings 
utilized by concessionaires, are in fair to poor condition and there is 
no incentive for refuge managers to encourage additional commercial 
enterprises within the Refuge System.
    H. R. 1370 will establish a new policy for the upkeep and 
maintenance of property used by refuge concessionaires. I look forward 
to hearing from our witnesses on how this legislation will provide for 
better maintained and safer recreational opportunities, allow expenses 
to be treated as compensation by concessionaires and not undermine the 
National Wildlife Refuge Fund.
    I am now pleased to recognize the distinguished Ranking Democratic 
Member, Mr. Underwood.
                                 ______
                                 

STATEMENT OF THE HON. MARK SOUDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Souder. First of all, let me start by thanking you, Mr. 
Chairman, as well as the Chairman of the Subcommittee, Mr. 
Gilchrest, for holding a hearing on this very important 
legislation.
    The Fish and Wildlife Service has been working for many 
years on a bill like this which gives the Service the tools to 
properly maintain concession facilities located in National 
Wildlife Refuges and to provide the refuge visitor with safe 
places for recreation. I am pleased to be part of this process 
and am proud to be the House sponsor of H.R. 1370, the National 
Wildlife Refuge Concessions Reform Bill.
    This bill amends the National Wildlife Refuge System 
Administration Act to establish a new policy for the basic 
maintenance of facilities as well as Fish and Wildlife Service-
authorized improvements of facilities that are leased by 
concessionaires in the National Wildlife Refuges.
    Specifically, this bill authorizes the Secretary of 
Interior to include in any contract with a concessionaire 
provisions that authorize the concessionaire to maintain and/or 
repair facilities and to treat the costs incurred as a form of 
payment toward the leasing fees of the facilities. It is 
important to note that the Fish and Wildlife Service ultimately 
retains the right to decide which repairs are consistent with 
the mission of the National Wildlife Refuge System and thus 
should be authorized. This bill outlines specific lists of 
authorized projects that concessionaires are permitted to 
maintain and/or repair.
    Finally, the bill states that funds spent by 
concessionaires to maintain or repair a facility will not 
affect the National Wildlife Refuge Fund.
    Like most Americans, I regard wildlife refuges as national 
treasures where one can observe a variety of animals living in 
their natural habitats. Over 500 refuges have been established 
in the United States, not only to carry out conservation 
missions but also to act as living laboratories for the many 
visitors. Historically, refuges have sought to educate people 
about the importance of wildlife and plant habitats.
    In order for wildlife refuges to continue to carry out 
their important missions, refuge facilities must be able to 
adequately support visitors. This bill seeks to improve refuge 
facilities and properties by permitting the local 
concessionaires to fund maintenance projects. In a sense, 
concession operations provide visitors with a means to access 
refuge facilities and appreciate wildlife. Concession 
operations also provide a means for the refuge manager to build 
community support for the refuge by attracting visitors to the 
areas.
    Under current law, the Fish and Wildlife Service does not 
have the tools needed to adequately maintain our refuges' 
facilities. Restrooms, campgrounds, boat docks and buildings 
have fallen into a state of disrepair at refuges across the 
country. I know from personal experience that this is the case. 
Every year, my family travels to Sanibel Island, Florida, which 
is home to Ding Darling National Wildlife Refuge. I have 
witnessed firsthand the need for roof repairs, deck 
replacement, and additional restrooms that are handicapped-
accessible because of the tremendous number of people who go 
through this refuge.
    This bill seeks to correct the problem that is becoming 
commonplace at refuges across our Nation. The primary goal of 
this bill is to provide safe and properly-maintained facilities 
for the public to enjoy the experience of visiting a wildlife 
refuge. With enhanced facilities, it may even attract increased 
visitors to the refuges, which will in turn raise the awareness 
of wildlife refuges.
    As habitat decreases in many areas of the United States due 
to business and home expansion, it is critical that the public 
appreciate and understand the need for wildlife refuges. I 
encourage my colleagues to support this important piece of 
legislation.
    Thank you.
    [The prepared statement of Mr. Souder follows:]

 Statement of the Honorable Mark Souder, a Representative in Congress 
                       from the State of Indiana

    First of all, let me start out by thanking you, Mr. Chairman, for 
holding a hearing on this very important legislation. The Fish and 
Wildlife Service has been working for many years on a bill like this 
which gives the service the tools to properly maintain concession 
facilities located in National Wildlife Refuges and to provide the 
refuge visitor with safe places for recreation. I am please to be a 
part of this process, and I am proud to be the House sponsor of HR 
1370, the National Wildlife Refuge Concessions Reform Bill.
Purpose of this Bill
    This bill amends the National Wildlife Refuge System Administration 
Act to establish a new policy for the basic maintenance of facilities 
as well as Fish and Wildlife Service authorized improvements of 
facilities that are leased by concessionaires in National Wildlife 
Refuges.
    Specifically, this bill authorizes the Secretary of Interior to 
include in any contract with a concessionaire, provisions that 
authorize the concessionaire to maintain and/or repair facilities and 
to treat the costs incurred as a form of payment towards the leasing 
fees of the facilities. It is important to note that the Fish and 
Wildlife Service ultimately retains the right to decide which project 
repairs are consistent with the mission of the National Wildlife Refuge 
System an thus should be authorized. This bill outlines specific lists 
of authorized projects that concessionaires are permitted to maintain 
and/or repair.
    Finally, the bill states that funds spent by concessionaires to 
maintain or repair a facility will not affect the National Wildlife 
Refuge Fund.
Why this Bill is Important
    Like most Americans, I regard wildlife refuges as national 
treasures where one can observe a variety of animals living in their 
natural habitats. Over 500 refuges have been established in the United 
States not only to carry out conservation missions, but also to act as 
living laboratories for the many visitors. Historically, refuges have 
sought to educate people about the importance of wildlife and plant 
habitats.
    In order for wildlife refuges to continue to carry out their 
important missions, refuge facilities must be able to adequately 
support visitors. This bill seeks to improve refuge facilities and 
properties by permitting the local concessionaires to fund maintenance 
projects. In a sense, concession operations provide visitors with a 
means to access refuge facilities and appreciate wildlife. Concession 
operations also provide a means for the refuge manager to build 
community support for the refuge by attracting visitors to the areas.
    Under the current law, the Fish and Wildlife service does not have 
the tools needed to adequately maintain our refuge's facilities. 
Restrooms, campgrounds, boat docks and buildings have fallen into a 
state of disrepair at refuges across our country. I know from personal 
experience that this is the case. Every year, my family travels to 
Sanibel Island, Florida which is home to Ding Darling National Wildlife 
Refuge. I have witnessed first hand the need for roof repairs, deck 
replacement and additional restrooms that are handicapped accessible.
    This bill seeks to correct the problem that is becoming commonplace 
at refuges across our nation. The primary goal of this bill is to 
provide safe and properly maintained facilities for the public to enjoy 
the experience of visiting a wildlife refuge. With enhanced facilities, 
it may even attract increased visitors to the refuges, which will in 
turn raise the awareness of wildlife refuges.
    I encourage my colleagues to support this important piece of 
legislation. Thank you.
                                 ______
                                 
    Mr. Jones. Thank you, Mr. Souder.
    At this time, I would like to recognize the gentleman from 
American Samoa for comments.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I would like to ask unanimous consent that our ranking 
member, Mr. Underwood's, statement be made part of the record.
    Mr. Jones. Without objection.
    [The prepared statement of Mr. Underwood follows:]

  Statement of the Honorable Robert Underwood, A Delegate to Congress 
                               from Guam

    Thank you Mr. Chairman. I realize that you are anxious to begin, so 
my opening remarks will be brief.
    Earlier this year, this committee met in March to learn more about 
the significant operations and maintenance budget backlog affecting the 
National Wildlife Refuge System.
    I think it is safe to conclude that the majority of members were 
greatly concerned, if not shocked, by the scale and extent of the 
deterioration of buildings and other vital facilities within the Refuge 
System such as utilities, dikes, levees, boat launches and public 
roads. This backlog not only presents pernicious hazards for the 
visiting public, but it also perpetually retards efforts to open the 
Refuge System to broader public use and dampens the public's enjoyment.
    It is with these thoughts in mind that I read through Mr. Souder's 
legislation, H.R. 1370. Considering the magnitude of the problem, I 
commend my colleague from Indiana for his creativity. Now more than 
ever, Congress will have to be innovative if we ever hope to find the 
necessary resources to rectify the budget backlog.
    However, despite my admiration for Mr. Souder's ingenuity, I do 
have concerns about the approach proposed in H.R. 1370 and its 
practical implications for the Refuge System.
    For example, what would be the affect on refuge revenue sharing 
payments to surrounding counties? Also, how many buildings and 
facilities identified under the Refuge Operations Needs System (RONS) 
or listed in the Maintenance Management System (MMS) are currently 
leased by concessions? Furthermore, how many of these facilities would 
actually be fixed up under this approach?
    I also question whether Mr. Souder's approach might exacerbate 
existing differences among individual refuges and further undermine 
consistency within the Refuge System as a whole.
    None of these questions raise insurmountable hurdles, but they do 
have to be answered. I am hopeful that many of them will be answered 
today. But until they are, this committee should proceed with caution 
until the need for this legislation and its practical affects on the 
Refuge System are clearly understood.
    Thank you Mr. Chairman.
                                 ______
                                 

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE TO 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. I would also certainly like to commend my 
good friend, the gentleman from Indiana, for his proposal in 
the legislation now before our Subcommittee for consideration.
    It has certainly been my privilege over the years, not only 
working with my good friend from Indiana, but I am 70 percent 
sure that the gentleman's intent and the purpose of this 
legislation is going to be a positive one for the care and 
providing for our National Wildlife Refuge System, and 
initially, I want to say that I will lend my support for the 
gentleman's proposed legislation, and I look forward to hearing 
from our friends with the administration.
    Thank you, Mr. Chairman.
    Mr. Jones. I thank the gentleman.
    Mr. Jones. The panel consists of Mr. Dan Ashe, Chief of the 
National Wildlife Refuge system, accompanied by Mr. Louis 
Hinds; Mr. Evan Hirsche, President of the National Wildlife 
Refuge Association; and Mr. Chip Campbell, President of 
Okefenokee Adventures.
    You are welcome, and we are glad to have you here.
    Please begin, Mr. Ashe.

 STATEMENT OF DANIEL M. ASHE, CHIEF, NATIONAL WILDLIFE REFUGE 
 SYSTEM, U.S. FISH AND WILDLIFE SERVICE, ACCOMPANIED BY LOUIS 
 HINDS, REFUGE SUPERVISOR FOR AREA IV, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Ashe. Thank you, Mr. Chairman, and thanks for the 
opportunity to come before the Subcommittee today. As I 
explained to a few of you, I have to apologize to the 
Subcommittee because somewhere today, I somehow misplaced my 
jacket, but I will say that it is at least a sign of my 
willingness to come and roll up my sleeves and work with the 
Subcommittee.
    As we think about America's National Wildlife Refuge System 
and where we find ourselves today, we are on the verge of 
celebrating the 100th anniversary of this system of lands. We 
are still growing, at nearly 94 million acres and 548 units 
across the United States. We are protecting more and more of 
our Nation's richest wildlife habitat. In many respects, we are 
stronger than we ever have been, and in many respects, we are 
more challenged than we ever have been.
    I think the discussion that we are having today about 
providing authority for us to use and manage concessions in a 
better way is a good example of what we need to do. Americans 
have a passion for wildlife and wild places. They are 
increasingly turning to the out-of-doors for recreational 
opportunities. They are increasingly turning to us and the 
National Wildlife Refuge System to provide those opportunities 
to get outdoors, to experience wildlife, to bring their 
families and to bring their friends.
    Currently, we are struggling to provide the services that 
are necessary to meet the demand and the expectations that 
people have of us and the portion of America's public lands 
that we manage.
    Congressman Jones, I believe, mentioned our maintenance 
backlog, our operations backlog, our backlog of construction 
projects. When you add all of those up, the total is about $2.7 
billion worth of needs within the Refuge System.
    I think that concessions and better and stronger 
partnerships with business to provide the kinds of services 
that people expect and deserve when they come to National 
Wildlife Refuges is a key to meeting the needs, the growing 
needs and demands of the public for quality outdoor recreation.
    Just last week in dealing with an issue regarding a public 
use program at one of our refuges and one of our existing 
cooperative agreements, one of the attorneys in the 
Department's Solicitor's Office looked and me and told me: 
``Dan, the problem is the Service is trying to deal with big 
business using small tools.''
    So I think that what I have to do mostly today, 
Congressmen, is applaud your leadership in introducing H.R. 
1370 and applaud the Subcommittee and the Committee for holding 
this hearing and taking an important step to help give us some 
bigger tools to manage the challenges that lie before us.
    Ultimately, we will all be serving America by providing 
expanding opportunities for high-quality outdoor recreation. 
The administration supports the goals of H.R. 1370. As we have 
gone through the process of reviewing the legislation, we have 
identified some concerns--and maybe ``concerns'' is too strong 
a word to express in some regards, because they are simply 
suggestions and recommendations about how to make the 
legislation stronger, to ensure that as we move in this 
direction, we are accountable for the use of any dollars that 
are collected and to ensure they are directed toward providing 
services for people who ultimately will be paying the fees and 
the price of admission that concessionaires are charging.
    These are specific and not serious concerns on our part, 
but they are concerns that we feel we need to sit down with the 
Subcommittee and address as you consider moving forward with 
this bill today and in the weeks ahead.
    Those concerns are articulated in our testimony. 
Specifically outlined in the testimony--and I will not go 
through each of them here today--but as an example, one of the 
things that we want to make sure of is that in section 5(a)(2) 
for instance, we need to talk and think about specifically what 
kinds of maintenance and repairs would be appropriate for a 
concessionaire to provide in lieu of a cash payment, because 
certainly as we think about these relationships, we do not want 
to provide the opportunity where a concessionaire would 
essentially be getting credit, I will say,k for something that 
they would do normally and should provide normally as a part of 
their business investment in the refuge. But I think those are 
issues that we can resolve through discussion, as we have with 
the Subcommittee and the Committee on many other things, and we 
look forward to working with you and moving this legislation 
forward.
    I will again briefly say that I do believe this is an 
important opportunity for us to work together to provide us 
with the bigger tools that we meed if we are going to meet the 
challenges ahead and as we look forward to celebrating the 
100th anniversary of the Refuge System and inviting America to 
come and experience what wonderful places they are.
    Thank you.
    Mr. Jones. Thank you very much.
    Mr. Hinds, did you want to add anything at this point?
    Mr. Hinds. Not at this time, thank you.
    Mr. Jones. Mr. Hirsche?
    [The prepared statement of Mr. Ashe follows:]

  Statement of Dan Ashe, Chief, National Wildlife Refuge System, U.S. 
                       Department of the Interior

    Mr. Chairman, I want to thank you for the opportunity to present 
the Administration's views of H.R. 1370. The bill would amend the 
National Wildlife Refuge System Administration Act of 1966 to authorize 
the Secretary of Interior to provide for maintenance and repair of 
buildings and properties located on lands in the Refuge System. The 
Administration supports the goals of this legislation; however, we have 
a number of concerns with the bill and would like to work with the 
committee to address these concerns to help improve the management and 
accountability of the refuge concession program.
                    HISTORY AND NEED FOR LEGISLATION
    A brief review of relevant legislation and background information 
will help explain the need for this type of bill.
    Concessions (i.e., secretarially granted privileges) are defined as 
businesses operated by private enterprise that provide recreational, 
educational, and-interpretive opportunities for the visiting public. A 
concession provides a public service and, generally, requires some 
capital investment by the concessionaire and the Fish and Wildlife 
Service (Service) for facilities and products. The Secretary of the 
Interior (Secretary) delegated the authority to approve such ventures 
to the Director of the Fish and Wildlife Service in October 1957. It 
has since been delegated to the Regional Directors.
    Since 1935, the Secretary has been authorized to sell or otherwise 
dispose of surplus products, to grant privileges on units of the Refuge 
System and to have the receipts be reserved in a separate fund known as 
the Refuge Revenue Sharing Fund (See Section 401 of the Act of June 15, 
1935, 16 U.S.C. 715s). Subsection (b) of 16 U.S.C. 715s stipulates that 
the Secretary may pay any necessary expenses incurred in connection 
with the revenue-producing measures set forth in 715s(a). However, 
public recreation-related concession-generated revenues have not been 
utilized to offset concession-related refuge administration, capital 
improvements, and maintenance expenses because of competing priorities 
for refuge resources. Subsection (c) requires that the balance of the 
Fund be paid to counties in which lands are reserved from the public 
domain or acquired in fee and managed by the Service. In fiscal year 
2000, the Refuge Revenue Sharing Fund received deposits of $6.7 million 
from sales and the disposal of property. Only $204,000 was deposited 
into this account from refuge concession programs.
    The Refuge Recreation Act of 1962 (16 U.S.C. Sec. 460k through 460 
k-3), as amended, allows for public recreation in fish and wildlife 
conservation areas as long as it is compatible with conservation 
purposes, is an incidental or secondary use, and is consistent with 
other Federal operations and primary objectives of the particular area.
    Pursuant to the National Wildlife Refuge System Administration Act 
of 1966 (16 U.S.C. 668dd-668ee), the Secretary is authorized to 
negotiate and enter into contracts with any person, public agency, or 
private enterprise for the provision of public accommodations when the 
Secretary determines such accommodations would not be inconsistent with 
the primary purpose for which the affected area was established.
    Subsequent to that, in 1983, the Service's Regional Director from 
Region 3 requested that concessionaires at the Crab Orchard National 
Wildlife Refuge in Marion, Illinois, be allowed to pay for repairs to 
facilities there in lieu of making concessions payments to the refuge. 
This request was denied. On January 12, 1983, the Service's Solicitor 
in Fort Snelling, Minnesota, ruled that 40 U.S.C. 303c (an exemption to 
40 U.S.C. 303b which requires all payments for leasing of buildings and 
property to be monetary in nature) was issued only with regard to the 
National Park Service. At that time, the Regional Director requested 
that the Service proceed with securing a similar exemption. This 
request was prepared by the Service's Legislative Counsel in 1984 and 
was forwarded to Honorable Thomas P. O'Neill, Jr., then-Speaker of the 
U.S. House of Representatives. Unfortunately, this was never acted 
upon.
    In 1995, the Office of the Inspector General identified the need to 
improve the condition of concession facilities, to increase the fees 
paid to refuges by concessionaires, and the need to have 
concessionaires make repairs and improvements to the facilities (Audit 
Report No. 95-I- 376). The Office of the Inspector General has issued 
numerous reports on the management and administration of National Park 
Service concessions and Concessionaire Improvement Accounts. The 
National Park Service has an extensive concession program and any 
legislation to improve the refuge concession program should consider 
the recommendations included in these reports on managing concessions.
    The Government Accounting Office (GAO) conducted an audit of 
government agencies providing concession opportunities in 1996. The GAO 
found that competition resulted in a higher rate of return from 
concession operations and that agencies that were allowed to retain the 
fees received a better rate of return. In agencies retaining fees, the 
average return to the government was 11.1 percent. In contrast, the 
concessions managed by agencies that did not retain fees averaged a 2.6 
percent rate of return.
    Most recently, the Refuge Improvement Act of 1997 (16 U.S.C. 668dd) 
established priority uses for the National Wildlife Refuge System. 
Hunting, fishing, wildlife observation and photography, environmental 
education and interpretation are the six priority uses that the System 
must provide, if they are deemed compatible with the purpose for which 
the refuge was established.
    Finally, the Service is supplementing this statutory framework by 
developing policy on concession operations to provide guidance for 
issuing concession agreements under our current legislative mandates 
and authorities.
    THE VALUE OF CONCESSIONS IN THE NATIONAL WILDLIFE REFUGE SYSTEM
    Despite the long history of attention to the issue of concessions 
facilities on National Wildlife Refuges, the concessions program can be 
improved.
    The Service utilizes concession operations as a valuable management 
tool by which it can provide recreational and educational services to 
the visiting public. In some instances, concession operations may be 
the best means for visitors to view and appreciate wildlife and, thus, 
to gain a better understanding of the purpose and mission of the 
National Wildlife Refuge System. In general, concessions help the 
Service achieve its mission to conserve, protect, and enhance fish and 
wildlife, plants and their habitats. They also help to educate the 
public about the importance of wildlife habitat preservation and the 
protection of ecosystems.
    Concession operations also help refuge managers demonstrate that 
refuges can be an economic asset by attracting visitors to areas 
perhaps otherwise not visited. Current concession operations include 
services such as canoe rentals, guided naturalist tours, ferry 
operations to remote refuge islands, and fishing guides. All of these 
operations afford the public the opportunity to experience ``hands on'' 
the many features and advantages of a wildlife refuge, and to come away 
with a greater appreciation of how their tax dollars are being spent.
    Despite the many advantages of concession operations, the Service 
currently has very few operations in place compared to the total number 
of refuges. Part of the reason for such few numbers of concessions is 
that current law (40 U.S.C. 303b) requires leasing of buildings and 
properties by concessionaires to be paid for monetary consideration 
only. Some refuge managers believe their best efforts to provide a 
cost-effective means of maintaining refuge facilities are hampered by 
not allowing non-monetary consideration be paid by concessionaires for 
such leases. Although the Service can pay for the administration, 
capital improvement, and maintenance expenses involved with a 
concession operation (as is allowed under subsection (b) of 16 U.S.C. 
715s), other priorities exist.
    We believe that improving the existing concessions program could 
begin with legislation similar to H.R. 1370 which, among other things, 
would allow the Fish and Wildlife Service to accept non-monetary 
considerations in lieu of concessions payments.
                               H.R. 1370
    Legislation could improve refuge concessions management and 
accountability. The Administration supports the goals of H.R. 1370 and 
would like to work with the committee to strengthen and clarify 
provisions as described below.
    H.R. 1370 would create a new Section 5(a)(1) which authorizes a 
concessionaire to maintain or repair any improvement on or in such land 
or water that the concessionaire is authorized to use for such 
purposes. This language is vague and should be modified to ensure that 
the maintenance and repairs are to lands and waters directly related to 
the concession.
    Section 5(a)(2) allows the Secretary of the Interior to treat costs 
incurred by the concessionaire for maintenance or repair as 
consideration for the use of the refuge lands. In order to maintain 
accountability, the bill should specifically say what kind of 
maintenance and repairs qualify as consideration for use of the 
refuges. Otherwise, concessionaires could include a number of costs not 
intended to be included under the bill and would normally be considered 
part of doing business or carrying out a concession agreement. The 
Service would be happy to help identify specific costs to include.
    H.R. 1370 should be amended to address possessory interests as they 
relate to improvements or new structures constructed by the 
concessionaire.
    Issues with possessory interests have caused problems with National 
Park Service concessions and should be explicitly addressed in any bill 
designed to improve the refuge concession program. We will be more than 
happy to work with the committee to address this issue.
    Additionally, the bill does not indicate how the non-monetary 
consideration would be calculated. Based on past experience with the 
National Park Service concession program, H.R. 1370 should ensure that 
concessionaire improvement accounts are not established.
    Section 5(b) of the bill establishes that concession-related 
receipts shall be available to the Secretary for expenditure, without 
further appropriation, to increase the quality of the visitor 
experience and enhance the protection of resources. This means that an 
appropriate share of the concessionaire's gross receipts would be 
available to the refuge for contract administration, backlogged repair 
and maintenance projects, interpretation, signage, habitat or facility 
enhancement, resource preservation, annual operation, maintenance and 
law enforcement relating to public use. Precedent for returning a 
portion of revenues to the collecting field station is provided by the 
National Parks Omnibus Management Act of 1998 (P. L. 105-391). This law 
authorizes the return of 80 percent of the franchise fees (and other 
monetary considerations) collected at each Park Service unit to be used 
for visitor services and resource management programs and operations. 
The remaining 20 percent is returned to the National Park Service to 
address National Park Service-wide concessions costs.
    If there is a mechanism to allow a portion of revenues to remain 
where they are generated, the Department believes that field stations 
with existing concessionaires will provide a higher quality experience 
for the visiting public. In addition, more field stations will be 
willing to pursue the option of providing recreational opportunities to 
the public through the use of concessions, benefiting neighboring 
communities in meaningful ways. The key, however, in the spirit of 
being accountable to the users, is that there must be a linkage between 
the revenue coming in and the use of those funds. The bill should 
clearly establish this linkage to prevent fees and other payments from 
simply supplementing annual appropriations for the refuge system.
    We do need to point out, however, these funds would no longer be 
available to communities through the Refuge Revenue Sharing Fund. 
Without knowing how to calculate non-monetary consideration it is 
difficult to estimate what the overall impact of this section would be 
on individual counties. We would be happy to prepare such information 
for further consideration of this bill.
    Finally, section 5((b)(3) should be clarified. We would be happy to 
work with the committee to strengthen this language.
                               CONCLUSION
    The Administration supports the goals of H.R. 1370 and looks 
forward to working with the Committee to address its concerns during 
this exciting time. As the National Wildlife Refuge System approaches 
its centennial anniversary in 2003, the Service is working hard to 
ensure that visitors find national wildlife refuges welcoming, safe, 
and accessible, with a variety of opportunities to enjoy and appreciate 
America's fish, wildlife and plants. We intend to host thousands of 
activities for the public nationwide throughout and beyond 2003. We 
want people in communities to become aware of local national wildlife 
refuges, to understand that each refuge is part of the National 
Wildlife Refuge System, and to realize how refuges can contribute to 
tourism and enhance local economies even while placing wildlife first.
    Providing quality wildlife-dependent recreational opportunities is 
part of the Service's vision for the Refuge System. Concession 
operations can provide the visiting public with a means to access and 
interpret refuge ecosystems. Yet due to disincentives in current 
concessions law, concessions are greatly underutilized throughout the 
refuge system. We look forward to working together to help ensure that 
the Service's concessions system will be more efficient and economical 
and improve the quality of the visitor experience at existing 
concessions operations without compromising overall management and 
accountability of the refuge concessions program.
    A properly managed concessions program will help accomplish the 
Service's desire to build a broader base of public support for wildlife 
conservation by reaching out and involving a larger cross section of 
the American public in public use programs and community partnership 
efforts. Further, concession-generated visitation can demonstrate to 
local communities that refuges are an economic asset. Part of the 
dialogue with communities and their leaders should be a full accounting 
of the impacts refuges have in local communities, both economically and 
through intangible contributions to quality of life.
    Thank you, Mr. Chairman, for giving me the opportunity to discuss 
this legislation with you. I will be happy to answer any questions the 
Committee might have.
                                 ______
                                 

STATEMENT OF EVAN HIRSCHE, PRESIDENT, NATIONAL WILDLIFE REFUGE 
                          ASSOCIATION

    Mr. Hirsche. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, on behalf of 
the National Wildlife Refuge Association comprised largely of 
current and former refuge employees and also refuge ``Friends'' 
group members from around the United States, I thank you for 
the opportunity to offer comments on H.R. 1370, which concerns 
the use of concession fees to offset maintenance needs on 
refuges.
    I would also like to thank Representative Souder for 
introducing this legislation and directing attention to the 
dual issues of concessions on refuges and the crippling Refuge 
System maintenance backlog.
    As the only national organization dedicated solely to the 
protection, enhancement, and expansion of the Refuge System, 
the Refuge Association has a fundamental interest in how 
concessions are operated and managed on refuges, particularly 
in light of the rapidly growing number of visitors to the 
System witnessed in the last few years, and we expect a 
significant increase in the coming years.
    The Association applauds H.R. 1370 for allowing 
concessionaires to allocate fees to improving concession 
facilities that would otherwise be directed off-refuge. The 
intent, as we understand it, is that funding otherwise 
allocated to concession facility upkeep could then be directed 
to other critical refuge needs.
    However, H.R. 1370 does raise a few important issues as 
well as questions, and we look forward to working with the 
Committee to address these as the legislation moves forward.
    From the outset, we want to affirm that although the Refuge 
Association is an ardent supporter of the Refuge System's 
``wildlife first'' mission, we do understand and recognize that 
allowing people good opportunities for compatible wildlife-
oriented recreation on refuges is a great way to get 
communities excited about and supportive of refuges.
    We are concerned, however, that without adequate sideboards 
for how fees can be expended, creating an incentive for 
allowing concessions on financially stressed refuge lands, will 
lead to abuses in making compatibility determinations for these 
activities.
    In the words of one current refuge manager with concessions 
experience: ``Concessions tend to run you. They get the support 
of the community, and suddenly, you are at their mercy.'' While 
I think that view represents one end of the spectrum, I am 
confident that by and large most concessionaires are 
sympathetic to the conservation goals and objectives of 
refuges.
    To minimize the potential problem the Association 
recommends that language be modified in H.R. 1370 to more 
specifically limit funds to facilities improvement and services 
that are directly related to the concession, as we believe the 
legislation intends.
    As currently crafted, the language in our view allows for a 
broad array of uses and could lead to some level of abuse.
    An additional way to better ensure that concession 
activities remain consistent with the conservation objectives 
of refuges may be to offer a right of first refusal to refuge 
``Friends'' groups, which currently number about 210 around the 
system. The benefits here are twofold. First, refuge 
``Friends'' groups by their very nature are inclined to have 
the best interests of the refuge in mind; and second, fees from 
concessions will go back to support the facilities that they 
are operating, while at the same time profits end up reaching 
the refuge in one way, shape or form over the long haul, in 
essence doubling the money.
    Our last point concerns the Refuge Revenue Sharing Act. As 
we read it, by allowing concession fees to stay on refuges, 
H.R. 1370 will divert funds from the Refuge Revenue Sharing 
Fund, monies of which are used to compensate counties in which 
lands are managed by the Fish and Wildlife Service. Concession 
fees represent a very small contributing component to the 
overall fund, but we do have concerns about further 
deterioration of an already underfunded program that also 
serves to build community support for refuges. In effect, are 
we robbing Peter to pay Paul?
    Because of this, we urge the Committee to review this 
important issue in the near future.
    In conclusion, while the National Wildlife Refuge 
Association strongly supports the intent of H.R. 1370, we 
believe changes can be made to ensure that this legislation 
addresses maintenance needs relating to concession activities 
while also preserving the mission and purposes of refuges.
    Thank you, Mr. Chairman.
    Mr. Jones. Thank you.
    Mr. Campbell?
    [The prepared statement of Mr. Hirsche follows:]

   Statement of Evan M. Hirsche, President, National Wildlife Refuge 
                              Association

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the National Wildlife Refuge Association and its 
membership comprised largely of current and former refuge professionals 
and refuge ``Friends'' group members throughout the United States, 
thank you for the opportunity to offer comments on H.R. 1370 which 
concerns the use of concession fees to offset maintenance needs on 
refuges. I would also like to thank Representative Souder of Indiana 
for introducing this legislation and directing attention to the dual 
issues of concessions on refuges and the crippling $700 million Refuge 
System maintenance backlog.
    As the only national organization dedicated to the protection, 
enhancement and expansion of the Refuge System, the Refuge Association 
has a fundamental interest in how concessions are operated and managed 
on refuges, particularly in light of the rapidly growing number of 
visitors to the System. Anticipating the Refuge System's Centennial in 
2003, and as a member of the Cooperative Alliance for Refuge 
Enhancement (CARE), we are also acutely aware of the need to address 
the System's massive operations and maintenance backlog if these vital 
conservation lands are to successfully ensure that wildlife populations 
are both plentiful and diverse in this new century.
    In our view, H.R. 1370 raises important issues as well as questions 
and we look forward to working with the Committee to address these as 
this legislation moves forward. From the outset, we want to affirm 
that, while we are ardent supporters of the ``wildlife first'' mission 
of the Refuge System, we also recognize that providing opportunities 
for the public to engage in compatible, wildlife-oriented recreational 
activities on refuges contributes to building community support for 
these lands. Furthering public understanding and appreciation for 
refuges can help us ensure a well-tended Refuge System in the years 
ahead.
    Nevertheless, in 2000, the number of visitors to refuges was 36 
million, an increase of more than 80 percent since 1990. Estimates are 
that visitation will reach more than 40 million in 2003, the Refuge 
System's Centennial. In light of this, there can be no question that 
programs and facilities meant to provide a positive experience for 
visitors must be both capable of safely meeting demand while not 
detracting from the important conservation activities that refuges are 
charged with implementing.
    The NWRA applauds H.R. 1370 for seeking to address this challenge 
by allowing concessionaires to allocate fees that would otherwise be 
directed off the refuge, to instead improve concessionaire facilities 
on site. The intent is that funding otherwise allocated to concession 
facility upkeep could then be directed to other critical refuge needs.
Incentives for Allowing Concessions
    We are concerned, however, that creating an incentive for allowing 
concessions on financially stressed refuge lands will lead to abuses in 
making compatibility determinations. Specifically, while all 
concessions activities will be required to meet compatibility 
determinations under the National Wildlife Refuge System Improvement 
Act, the lure of increased maintenance funding for refuges could result 
in refuge professionals tilting their decisions in favor of the 
allowing the concession in situations where they might otherwise err on 
the side of caution.
    Concessions currently operate on at least 20 refuges and at first 
glance it might appear that the opportunities to operate lucrative 
businesses on other units are limited. As for-profit ventures, however, 
private concessions must devise strategies to lure more customers and 
provide more services to ensure long-term profitability. From our 
perspective, there are numerous untapped possibilities that might 
represent outstanding opportunities for concessionaires where such 
activity may be inappropriate.
    For example, the 45,000-acre Red Rock Lakes NWR, located in 
southwest Montana's Centennial Valley, just 30 miles west of West 
Yellowstone, is virtually unknown to the millions of tourists that 
visit Yellowstone each summer. Yet this valley that runs east-west 
along the continental divide is not only a haven for hundreds of bird 
species, moose, pronghorn, grizzly, lynx and wolves, but is also 
visually spectacular, with the 10,000 foot Centennial Range towering 
over the south side of the refuge.
    By advertising heavily in West Yellowstone and creating 
arrangements with local outfitters, establishing a canoe or boat 
livery, and ``updating'' the refuge's two campsites to include potable 
water and restrooms, an entrepreneurial concessionaire could attract 
possibly tens of thousands of visitors to the refuge each year. In such 
case, the impacts to wildlife may be difficult to ascertain, yet the 
character of the valley, with a steady stream of vans, cars and buses 
through it, would clearly be altered, even if kept outside wilderness 
boundaries. Furthermore, a heavy volume of traffic could ultimately be 
used as an excuse to pave over the gravel road that lies on a route 
once traversed by the Pony Express. Finally, with the significant 
increase in visitors, there would be a justifiable need to expand and 
modernize the refuge's offices and visitor center. Although these 
activities could be construed as being benign with respect to the 
refuge's establishing purpose (trumpeter swan protection), there's 
clearly a question of whether such activity would be appropriate given 
the circumstances.
    The lure of increased funds can be a powerful enticement to allow 
activities on refuges that are likely to be inappropriate. In some 
cases, politics can force refuge managers into accepting activities 
they would otherwise reject. In the words of one current refuge manager 
with concession experience, ``concessions tend to run you...they get 
the support of the community and suddenly you're at their mercy.''
    In one extreme case, albeit prior to the enactment of the NWRSIA, a 
regional office of the U.S. Fish and Wildlife Service placed inordinate 
pressure on a refuge manager to allow construction of an ``eco-lodge'' 
in the middle of whooping crane critical habitat. Risking his job to 
protect the resource, the now-retired refuge manager was forced to 
appeal to an international treaty signatory nation and organizations 
such as the NWRA to place pressure on senior Interior Department 
officials to halt the project. Ultimately the project was rejected but 
this example illustrates one of the inherent risks of promoting 
concessions on refuges without adequate oversight and sideboards.
NWRA Recommendations
    While careful monitoring of Comprehensive Conservation Plans (CCPs) 
by more objective parties may serve as a balance, the likelihood of 
consistent oversight is remote. To minimize this potential problem, the 
NWRA recommends that language be modified in H.R. 1370 to more 
specifically limit funds to facilities improvement and services that 
are directly related to the concession. As currently crafted, the 
language in Sec. 5(a)(2) could conceivably allow fees to support 
everything from major expansion of visitor centers to habitat 
restoration. In our view such a broad array of authorized uses is 
fertile ground for abuse.
    An additional way to better ensure that concession activities 
remain consistent with the conservation objectives of refuges is to 
offer right of first refusal to refuge Friends groups on the units 
where they exist (currently 210). The benefits of such an approach 
would have a two-fold effect: Refuge Friends groups, by their very 
nature, have the best interests of the refuge in mind and; the refuge 
will benefit not only from fees returned to offset concession 
maintenance, but also from profits generated by the enterprise that 
will ultimately be returned to support the refuge in a number of 
different ways; in essence, doubling the money.
Refuge Revenue Sharing Act
    By allowing concession fees to stay on refuges, H.R. 1370 will 
divert funds from the Refuge Revenue Sharing Fund, monies of which are 
used to compensate counties in which lands are managed by the U.S. Fish 
and Wildlife Service. While representing a small contributing component 
of the overall Fund--$204,000 out of $6.7 million in fiscal year 2000--
we do have concerns about further deterioration of an already 
underfunded program that also helps build community support for 
refuges. In effect, are we ``robbing Peter to pay Paul?'' Because of 
this, we urge the Committee to review this important issue in the near 
future.
    In concluding, while the National Wildlife Refuge Association 
strongly supports the intent of H.R. 1370, we believe changes can be 
made to ensure that this legislation addresses maintenance needs 
relating to concession activities, while also preserving the mission 
and purposes of refuges. Thank you, Mr. Chairman, this concludes my 
testimony.
                                 ______
                                 

  STATEMENT OF CHIP CAMPBELL, PRESIDENT, OKEFENOKEE ADVENTURES

    Mr. Campbell. Mr. Chairman and members of the Subcommittee, 
I do want to thank you for giving me the opportunity to speak 
in support of H.R. 1370. I believe that passage of this bill is 
important to the public use and support of our country's 
outstanding National Wildlife Refuge System.
    My wife Joy and I own and operate Okefenokee Adventures in 
Folkston, Georgia. Last year, we were awarded the concession 
contract for the Okefenokee National Wildlife Refuge's East 
Entrance, which is also known as the Suwannee Canal Entrance.
    Our company, Okefenokee Adventures, began operations on 
September 1, 2000, so we are pretty new. I have included some 
additional information in my written statement about the 
character of our extraordinary refuge down on the Okefenokee 
Refuge, but I do want to point out that as the Okefenokee 
National Wildlife Refuge's concessionaire, it is the business 
of our company to help visitors understand and appreciate the 
extraordinary ecological dynamics, wilderness values, and 
cultural history of the Okefenokee Swamp and in doing so, to 
further the mission and purpose of the National Wildlife Refuge 
System.
    Our commitment to developing a high-quality visitor 
services operation was the centerpiece of our contract 
proposal, and we view that role as that of a cooperating 
partnership with the refuge's public use program managers.
    While that is necessarily and understandably a secondary 
priority for refuge management, it is nevertheless important. 
The Okefenokee attracts 400,000 visitors a year from local 
communities across the United States an around the world. A 
Georgia Department of Industry, Trade and Tourism study reveals 
that Okefenokee visitors produce an average annual economic 
impact of $55 to $65 million for the three Georgia counties, 
Charlton, Clinch, and Ware, in which the refuge is located. In 
2000, overall tourism expenditures in these counties totalled 
$77.2 million. According to Georgia Industry, Trade and Tourism 
data, tourism supports 66 businesses and provides 1,083 jobs in 
the same three-county area.
    The management of the Okefenokee National Wildlife Refuge 
administers three public entrances under varying arrangements, 
one in each county. A private park on the north side of the 
swamp near Waycross in Ware County, Georgia, the Okefenokee 
Swamp Park, receives about 80,000 visitors per year. Operating 
under a lease arrangement with the U.S. Fish and Wildlife 
Service, Stephen C. Foster State Park, located near the small 
town of Fargo in Clinch County, Georgia, provides access to the 
western side of the swamp for approximately 120,000 visitors 
per year. And about half of the Okefenokee's visitors, about 
200,000, come through our entrance, the East Entrance, located 
in Charlton County south of Folkston, Georgia. That also serves 
as the primary National Wildlife Refuge entrance.
    The facilities provided to our company, Okefenokee 
Adventures, under our concession contract with the U.S. Fish 
and Wildlife Service are located onsite at the East Entrance, 
which was formerly known as the Suwannee Canal Recreation Area 
and historically known as Camp Cornelia. These facilities 
consist of two buildings--an 1,800-square-foot, climate-
controlled buildings and a 900-square-foot storage shed without 
climate control. Along with the refuge visitor center, these 
structures were build in the late sixties to replace the rather 
dilapidated shacks of a fish camp that had operated at the 
site. The buildings were completed about 1970 and are 
immediately adjacent to a boat basin that includes a 400-foot 
wooden bulkhead and dock, 25 15-foot-long finger docks, and a 
concrete boat ramp. We have a six-by-six oil and gas house for 
hazardous waste material storage and a 500-gallon above-ground 
storage tank located away from the water's edge.
    I should note that at the time of their completion, these 
structures served what was still primarily an access for 
fishermen in the early seventies. According to refuge 
officials, the projected useful life of the buildings was 20 
years, and obviously, they are still in use. I have observed 
numerous renovations of the service area over the years as the 
operators have sought to accommodate changing visitor needs.
    When I was a youngster, I purchased my fish bait and tackle 
at a counter located in the half of the larger building that 
was wired for electricity. At that time, the other half of the 
building was unwired and used for storage, and other than 
traditional fishermen's staples, it offered little in the way 
of visitor amenities.
    As the Okefenokee's national profile grew, and visitor 
numbers increased, the larger building's former storage area 
was enclosed and wired; the building's electricity, air 
conditioning and plumbing systems were extended into the 
expansion, and restroom facilities were constructed, although 
they could not and still cannot be accessed from the interior 
of the building.
    In the 1980's and 1990's, as visitor demographics continued 
to shift toward traveling families and retirees, birders, 
wildlife photographers, canoeists, and the other outdoor 
recreationists that tourism officials like to call ``eco-
tourists'' and ``nature-based tourists,'' t-shirts, postcards, 
rubber alligators, and other souvenirs appeared.
    The refuge removed a fish cleaning station at the end of 
the dock that had become an attractive nuisance--it was too 
attractive to the boat basin's resident alligators--and 
replaced it with a handicapped access ramp and a 1,100-square-
foot picnic deck. The 900-square-foot outbuilding was divided 
into three rooms to accommodate storage and workshop needs, and 
a 40-foot canoe storage rack constructed. In the late 1990's, 
the previous concessionaire converted a back room into a small 
kitchen, primarily to prepare meals for organized groups.
    Today, using these same families, our company, Okefenokee 
Adventures, provides a full range of visitor services and 
support. We are open 364 days a year--every day except 
Christmas--from half an hour before sunrise until 5:30 p.m. 
during daylight savings time and until 7:30 p.m. during 
standard time--we have long days. We have 12 employees, most of 
whom work full-time or nearly so for us. We conducted guided 
interpretive tours of the swamp's waterways by motorized boat, 
canoe and kayak, for individuals, families, and organized 
groups, by prior arrangement and on a walk-in basis. We also 
outfit and guide multi-day excursions into the swamp's interior 
on the refuge's wilderness canoe trail system. We conduct 
walking tours along upland trails, along an historic swamper 
homestead, and along the Chesser Island boardwalk.
    In addition to our interpretive tours, we provide rentals 
of canoes, kayaks, and motorized skiffs for self-guided 
exploration of the swamp. We do have other rental items. We 
continue the tradition of selling Georgia hunting and fishing 
licenses, fishing tackle and provisions, and our gift shop 
inventory includes many kinds of swamp and nature-related 
souvenirs and educational toys.
    In addition to prepared snacks, beverages and ice cream, 
our food service operation, the Camp Cornelia Cafe, services a 
variety of sandwiches and daily specials to the public, refuge 
employees, and prearranged organized groups.
    We are doing a lot out of a fairly small facility. Our 
operations began on September 1, 2000, as I said. Our first 
year of operation, we received tremendous assistance and 
support from Okefenokee National Wildlife Refuge management, 
staff, and volunteers. We are especially grateful to the 
AmeriCorps crew that cleaned, scoured, and painted our main 
building in the earliest days of our operation.
    At the same time, we are aware of the extremely limited 
funding available to repair and maintain our facilities. While 
critical materials, such as replacement of rotten dock board, 
have been obtained rapidly, other projects, such as 
construction of a lean-to shelter for our rental bicycles, are 
languishing for lack of funds.
    When the invitation was extended to me to present my views 
on the proposed legislation, H.R. 1370, my thoughts turned to 
the maintenance projects that could be funded from our 
concession revenue. Most of these are decidedly prosaic. We 
need a ready supply of replacement dock boards and nails. The 
ceramic tiles in the original half of our main building do not 
match the linoleum tiles of the expansion and kitchen; they are 
all badly discolored and worn, and we would like to replace the 
tiling. Our bathroom fixtures are old and corroded and need to 
be replaced. We would really like to renovate the bathrooms 
entirely and create some kind of external access as well. We 
need new screens for the windows, and we can identify several 
repairs and upgrades to our kitchen facilities that would 
probably please our county health inspector.
    In addition to basic maintenance and repairs, the 
provisions for funding of facility enhancements are appealing. 
Through my reading of the proposed legislation and my 
understanding of financial logistics, I am led to conclude that 
major facility enhancements such as new building construction 
would probably continue to require special project grants or 
appropriations. But as far as smaller projects go, the proposed 
amendment could provide or help provide funding for substantial 
facility enhancements. Examples that would be of direct benefit 
to our company would be the proposed Mizell Prairie boardwalk, 
the trailhead for which is slated to be located adjacent to our 
facility; new observation decks and/or benches; upgrades to the 
composting toilets at the wilderness canoe trail campsites; 
construction of new canoe trail camping platforms if that is 
deemed compatible; and new landscaping with native plants as 
part of an overall renovation plan.
    If, as proposed, H.R. 1370 assures that the Revenue Sharing 
Program payments will not be affected, it does seem reasonable 
to conclude that any project on our refuge receiving funds from 
our concession fees would be preferable to the current 
situation, however indirect the benefits to our business 
interests might be.
    An important point that I would respectfully urge the 
Committee to consider--I would like to see the proposed change 
represent a net gain for the refuge public use program funding. 
If, as I understand it, one of the purpose of H.R. 1370 is to 
provide refuge manager with greater incentives to enter into 
concession contracts that enhance public use programs, that 
proposed change would need to provide revenues to supplement 
other funding sources rather than replacing them.
    In conclusion, I do wish to thank Congressman Mark E. 
Souder for introducing this important and necessary 
legislation. It makes good business sense for refuge 
concessionaires, refuge managers, refuge public use programs, 
and by extension, it makes good business sense for the local 
communities in which National Wildlife Refuges are located.
    I consider it a rare privilege to serve as the 
concessionaire on the Okefenokee National Wildlife Refuge and a 
tremendous honor to present my views on this matter today.
    Thank you.
    [The prepared statement of Mr. Campbell follows:]

    Statement of Chip Campbell, President of Okefenokee Adventures, 
           Okefenokee National Wildlife Refuge Concessionaire

    Mr. Chairman and members of the Committee, thank you for giving me 
the opportunity to speak in support of H.R. 1370. I believe that the 
passage of this bill is important to the public use and support of our 
country's outstanding National Wildlife Refuge system.
    My wife, Joy, and I own and operate Okefenokee Adventures in 
Folkston, Georgia. Last year, we were awarded the concession contract 
for the Okefenokee National Wildlife Refuge's East Entrance, also known 
as the Suwannee Canal Entrance. Our company, Okefenokee Adventures, 
began operations on September 1, 2000.
    Okefenokee National Wildlife Refuge is the largest National 
Wildlife Refuge in the eastern United States, encompassing 396,000 
acres of the 438,000-acre Okefenokee Swamp. Scientists tell us that the 
Okefenokee is a vast peat wetland complex of cypress, bay, gum and pine 
forests, dense shrub bogs, freshwater marshes, small lakes and streams, 
that it is the largest and best example of its ecosystem type, and that 
it harbors an abundance of wildlife endemic to the southeastern United 
States' coastal plain, including numerous threatened and endangered 
species - all of which is true. But the Okefenokee is far more than 
technical language conveys. In a region that abounds with wetlands, the 
Okefenokee is ``The Swamp''. An incomparable landscape of sometimes 
subtle but often breathtaking beauty, the swamp is an organic riot of 
teeming life and sudden death, home to hundreds of black bears and 
thousands of American alligators, as well as a kaleidoscope of birds 
and frogs and dragonflies and plants. It is a natural wildlife refuge. 
Accordingly, the Okefenokee National Wildlife Refuge was established in 
1937. It is one of our older Refuges. Although the swamp bears fading 
scars from human economic endeavors, which have included a failed 
drainage attempt in the late 19th century and a major cypress and pine 
logging operation in the early 20th century, it remains one of the most 
fundamentally wild places in the eastern United States. In recognition 
of this enduring and essential wildness, in 1974 the United States 
Congress designated 354,000 acres of the Okefenokee as a federal 
Wilderness Area.
    The human history of the Okefenokee is as rich as its biological 
diversity and its wilderness values. Once inhabited by people of 
Woodland and Mississippian cultures whose burial mounds still dot The 
Swamp's interior islands and upland edges, the Okefenokee later served 
as a hunting ground for Timucuans and a sanctuary for Seminoles before 
being settled by frontier folk of extraordinary toughness and self-
reliance who came to be called ``swampers''. Today, the residents of 
Okefenokee communities take great pride in their swamper heritage and 
its colorful store of history, folklore, legend and myth and 
determining which is which will pose a challenge for cultural 
historians for generations to come.
    As the Okefenokee National Wildlife Refuge's concessionaire, it is 
the business of our company, Okefenokee Adventures, to help visitors 
understand and appreciate the extraordinary ecological dynamics, 
wilderness values and cultural history of the Okefenokee Swamp and, in 
doing so, to further the mission and purposes of the National Wildlife 
Refuge system. Our commitment to developing a high-quality visitor 
services operation was the centerpiece of our contract proposal, and we 
view our role as that of a cooperating partnership with the Refuge's 
public use program managers. While that is necessarily and 
understandably a secondary priority for Refuge management, it is 
nevertheless an important one.
    The Okefenokee attracts approximately 400,000 visitors each year 
from the local communities, across the United States, and around the 
world. A Georgia Department of Industry, Trade and Tourism study 
reveals that Okefenokee visitors produce an average annual economic 
impact of $55-$65 million for the three Georgia counties, Charlton, 
Clinch and Ware, in which the Refuge is located. In 2000, overall 
tourism expenditures in these counties totaled $77.2 million. According 
to Georgia Industry, Trade and Tourism data, tourism supports 66 
businesses and provides 1,083 jobs in this same three county area. The 
management of the Okefenokee National Wildlife Refuge administers three 
public entrances under varying arrangements, one in each county. A 
private park on the north side of the swamp near Waycross in Ware 
County, Georgia, the Okefenokee Swamp Park, receives about 80,000 
visitors per year. Operating under a lease agreement with the U.S. Fish 
and Wildlife Service, Stephen C. Foster State Park, located near the 
small town of Fargo in Clinch Country, Georgia, provides access to the 
western side of the swamp for approximately 120,000 visitors per year. 
And about half of the Okefenokee's visitors, approximately 200,000 
people per year, come through our entrance, the East Entrance, located 
in Charlton County south of Folkston, Georgia, which serves as the 
primary National Wildlife Refuge entrance.
    The facilities provided to our company, Okefenokee Adventures, 
under our concession contract with the U.S. Fish and Wildlife Service 
are located onsite at the East Entrance, which was formerly known as 
the Suwannee Canal Recreation Area and historically known as Camp 
Cornelia. These facilities consist of two buildings: an 1800-sq. foot, 
climate-controlled building and a 900-sq. foot storage shed without 
climate control. Along with the Refuge Visitor Center, these structures 
were built in the late 1960's to replace the rather dilapidated shacks 
of a fish camp that had operated at the site. The buildings were 
completed about 1970 and are immediately adjacent to a boat basin that 
includes a 400-foot wooden bulkhead and dock, twenty-five (25) 15-foot 
long ``finger'' docks, and a concrete boat ramp. A 6'X6' oil/gas house 
for hazardous material storage and a 500-gallon above-ground fuel 
storage tank are located away from the water's edge across a paved 
parking area.
    It should be noted that at the time of their completion, these 
structures served what was still primarily an access for fishermen in 
the early 1970's. According to Refuge officials, the projected useful 
life of the buildings was 20 years. They are still in use. I have 
observed numerous renovations of this service area over the years as 
the operators have sought to accommodate changing visitor needs. When I 
was a youngster, I purchased my fish bait and tackle at a counter 
located in the half of the larger building that was wired for 
electricity. At that time, the other half of the building was unwired 
and used for storage, and other than traditional fishermen's staples 
such as Vienna sausages, soda crackers and Coca-Cola, the little shop 
offered little in the way of visitor amenities. As the Okefenokee's 
national profile grew and visitor numbers increased, the larger 
building's former storage area was enclosed and wired. The building's 
electricity, air conditioning and plumbing systems were extended into 
the expansion, and restroom facilities were constructed, although they 
could not (and still cannot) be accessed from the building's interior. 
In the 1980's and 1990's, as visitor demographics continued to shift 
towards traveling families and retirees, birders, wildlife 
photographers, canoeists, and the other outdoor recreationists that 
tourism officials like to call ``ecotourists'' or ``nature-based 
tourists'', T-shirts, postcards, rubber alligators and other souvenirs 
appeared on the concession shelves. The Refuge removed a fish cleaning 
station at the end of the dock that had became an attractive nuisance 
it was far too attractive to the boat basin's resident alligators and 
replaced it with a handicapped access ramp and beautiful 1,100-sq. foot 
picnic deck. The 900-sq. foot outbuilding was divided into three rooms 
to accommodate storage and workshop needs, and a 40-foot canoe storage 
rack was constructed. In the late 1990's, the previous concessionaire 
converted a back room into a small kitchen, primarily to prepare meals 
for organized groups.
    Today, using these same facilities, our company, Okefenokee 
Adventures, provides a full range of visitor services and support. We 
are open 364 days a year (every day except Christmas) from half an hour 
before sunrise until 5:30 p.m. during Daylight Saving Time and until 
7:30 p.m. during Standard Time. We have 12 employees. Most work full-
time or nearly so. We conduct guided interpretive tours of the swamp's 
waterways by motorized boat, canoe, and kayak for individuals, families 
and organized groups by prior arrangement and on a walk-in basis. We 
also outfit and guide multi-day excursions into the swamp's interior on 
the Refuge's wilderness canoe trail system. We conduct walking tours 
along upland trails, around an historic swamper homestead, and along 
the Chesser Island boardwalk. In addition to our guided interpretive 
tours, we provide rentals of canoes, kayaks, and motorized skiffs for 
self-guided explorations of swamp waterways. Other rental items include 
bicycles, which visitors use to observe wildlife along the Swamp Island 
Drive, camping gear for backcountry excursions, and fishing gear. We 
continue the tradition of selling Georgia hunting and fishing licenses, 
fishing tackle, and provisions. Our gift shop inventory includes many 
kinds of swamp and nature-related souvenirs and educational toys. In 
addition to packaged snacks, beverages, and ice cream, our food service 
operation, the Camp Cornelia Cafe, serves a variety of excellent 
sandwiches and daily specials to the public, Refuge employees, and 
prearranged organized groups.
    As I stated, Okefenokee Adventures began operations on September 1, 
2000. In our first year of operation, we have received tremendous 
assistance and support from Okefenokee National Wildlife Refuge 
managers, staff and volunteers. We are especially grateful to the 
AmeriCorps crew who cleaned, scoured and repainted our main building in 
the earliest days of our operation. At the same time, we are aware of 
the extremely limited funding available to repair and maintain our 
facilities. While critical materials such as replacements for rotten 
dock boards have been obtained promptly, other projects, such as the 
construction of a lean-to shelter for our rental bicycles, languish for 
lack of funds. When the invitation was extended to me to present my 
views on the proposed legislation, H.R. 1370, my thoughts turned to the 
maintenance projects that could be funded from our concession revenues. 
Most of these are decidedly prosaic. We need a ready supply of 
replacement dock boards and nails. The ceramic tiles in the original 
half of our main building do not match the linoleum tiles of the 
expansion and kitchen, and they are all badly discolored and worn, so 
we would like to replace our tiling. Our bathroom fixtures are old and 
corroded and need to be replaced: indeed we would like to renovate the 
bathrooms completely. We need new screens for our windows. And we can 
identify several repairs and upgrades to our kitchen facilities that 
would probably please our county health inspector.
    In addition to basic maintenance and repairs, the provisions for 
funding of facility enhancements are appealing. Though my reading of 
the proposed legislation and my understanding of financial logistics 
leads me to conclude that major facility enhancements such as new 
building construction would continue to require special project grants 
or appropriations, the proposed amendment could provide (or help 
provide) funding for substantial facility enhancements. Examples that 
would be of direct benefit to Okefenokee Adventures' interests could 
include the proposed Mizell Prairie boardwalk, the trailhead for which 
is slated to be located adjacent to our facility; new observation decks 
and/or benches; upgrades to the composting toilets at the wilderness 
canoe trail campsites; construction of new canoe trail camping 
platforms; and new landscaping with native plants. If, as proposed, 
H.R. 1370 assures that Revenue Sharing Program payments will not be 
affected, it indeed seems reasonable to conclude that any project on 
the Okefenokee National Wildlife Refuge receiving funds from our 
concession fees would be preferable to the current situation, however 
indirect the benefits to our business interests might be.
    An important point that I respectfully urge the Committee to 
consider: the proposed change should represent a net gain for Refuge 
public use program funding. If, as I understand it, one of the purposes 
of H.R. 1370 is to provide Refuge managers with greater incentives to 
enter into concession contracts that enhance their public use programs, 
the proposed change will need to provide revenues that supplement other 
funding sources rather than replacing them.
    In conclusion, I wish to thank Congressman Mark E. Souder for 
introducing this important and necessary legislation. It makes good 
business sense for Refuge concessionaires, Refuge managers and Refuge 
public use programs and, by extension, it makes good business sense for 
the local communities in which National Wildlife Refuges are located. I 
consider it a rare privilege to serve as the concessionaire on the 
Okefenokee National Wildlife Refuge and a tremendous honor to present 
my views on this matter today. Thank you.
                                 ______
                                 
    Mr. Jones. I thank you each for your testimony, and I would 
now like to yield to Mr. Underwood.
    Mr. Underwood. Thank you very much, Mr. Chairman, and I 
thank the witnesses for their testimony and apologize for not 
being here a little bit earlier. The elevators here are 
sometimes unreliable over in that part of Rayburn. We toyed 
with the idea of opening one of those emergency doors, but we 
thought better of it.
    Basically, I know the issue of concessions. Mr. Hirsche, in 
your testimony, you sort of intimated that the proposed 
legislation might create situations where refuge managers would 
pursue concessions in the hope of gaining additional funding 
for their sites, which would perhaps allow some concessions 
which would be incompatible with the Refuge System.
    How would you go about resolving that, because I do think 
that in general the legislation is a good idea; we would like 
to see additional revenues.
    Mr. Hirsche. Yes, Mr. Chairman, I agree.
    Mr. Underwood. No, I am not the Chairman--he is.
    Mr. Hirsche. Yes, Mr. Underwood, I certainly agree, and as 
I mentioned in my spoken remarks, do think it is valuable to 
have opportunities for the public to enjoy wildlife-oriented, 
compatible recreation on refuges. It is a terrific way to build 
community support for refuges.
    Again, as we read it in section 5(a)(2), the language could 
be interpreted as being fairly broad. The term ``resource 
preservation'' is one authorized use, and let me give you an 
example. Under that term monies could support rebuilding an 
impoundment structure which would provide a wetland for nesting 
birds. At many refuges around the country, there is a real need 
for fixing these impoundments.
    As we interpret the legislation it could be claimed by a 
concessionaire that using the fee money to restore that water 
control structure would be applicable to their concession if 
they are running, for instance, a birdwatching program or a 
hunt program, and so on. The concern would be that if you allow 
all of these alternatives, refuge managers would suddenly see 
an opportunity to address a number of conservation issues on 
their refuges that may not be directly related to the 
concession and the result may be bending some of the 
compatibility determinations in cases where managers might 
instead err on the side of caution.
    Mr. Underwood. Isn't it possible to suggest a process of 
review that would require the U.S. Fish and Wildlife Service to 
first make an assessment of the nature of the concessions? 
Perhaps Mr. Ashe or Mr. Hinds would care to respond to that.
    Mr. Ashe. Mr. Underwood, yes, I would, and I would like to 
give Lou a chance to respond to that as well. I share Evan's 
concern in several regards, and I think that with some 
relatively simple changes as we have recommended in our 
testimony, we can go a long way toward addressing those 
concerns by specifically linking the kinds of things that we 
can do with the money to the provision of visitor services.
    We do not want to provide an incentive for a manager to, by 
striking a deal with a business partner, essentially fund the 
operation of the refuge. What we should be trying to do is make 
this part of a plan to provide visitor services, and if we 
restrict it to that and look at the range of things that would 
be appropriate in supporting visitor services, then I think we 
can go a long way toward mitigating that concern.
    The other thing is that before 1997, I would have had more 
concern about this, but through the hard work of this 
Committee, we enacted the National Wildlife Refuge System 
Improvement Act, which put in place some very protective 
standards for evaluating uses of National Wildlife Refuges, and 
managers have to go through a rigorous process of making a 
determination about compatibility of uses.
    Let me let Lou Hinds make a few remarks. Lou is our refuge 
supervisor in Atlanta. He supervises all of our refuges in 
Florid and was recently the refuge manager at Ding Darling 
National Wildlife Refuge at Sanibel Island in Florida.
    Mr. Hinds. Thank you, Mr. Underwood, for your question.
    I echo Dan's statement. I think the 1997 National Wildlife 
Refuge System Improvement Act, which requires public disclosure 
through the comprehensive conservation management planning 
process that is required, opens up to public scrutiny what uses 
are going to take place on a National Wildlife Refuge. And it 
is not just left up to the refuge manager there; it is then 
bumped up to our regional office, where it goes through intense 
scrutiny by biologists as well as outdoor recreation planners. 
At that point, I think those people would, for lack of a better 
word, ferret out those bad decisions if there were any made and 
would say no to them. And if they were there, and a manger made 
a bad decision, that is where it would show up, and it would 
not be allowed.
    Mr. Underwood. Well, I would hope that your managers are 
not making bad decisions, but I am grateful for your oversight.
    Just based on the list that was given here, there are 540 
refuges, and 49 have concessions. What are the dynamics that 
are keeping more refuges from having concessions, and what are 
the impediments to that?
    Mr. Ashe. I think we have 49 refuges with some kind of 
cooperative agreement, or I will say ``business partnership,'' 
going on. We have a more limited number where we have 
concession contracts--I think 15 is the number.
    The main thing that limits or is a disincentive for a 
manager to enter into a concession agreement is exactly what 
Mr. Souder's bill is trying to address. It is a very practical 
question that if I enter into a concession contract, all the 
revenue from that contract goes into the National Wildlife 
Refuge Fund and is paid to counties. So that revenue goes off-
refuge, essentially. In order, then, to make improvements to 
the concession facilities, a manager has to use maintenance 
funding, annually appropriated maintenance dollars, which are 
very scarce. As wa mentioned before and as you have heard 
before, Congressman, we have an $800 million backlog, so as a 
manager faces that decision, it is a very pragmatic decision. 
So they try to be creative, and they try to do things through 
cooperative agreements or memoranda of understanding with other 
organizations to try to make sure the revenue stays on the 
refuge.
    Mr. Underwood. Has the Service given any consideration to 
perhaps--since it is not a question of whether these 
concession-type activities are incompatible with the refuges, 
it is just that under current rules, they are a disincentive--
have you made any estimate, perhaps, or thought about how many 
refuges where it would be incompatible to have any concession 
whatsoever, or conceivably, how many additional concessions 
could be established?
    Mr. Ashe. It would be sheer speculation on my part. I think 
there could be a significant number, and by ``significant,'' we 
are talking about dozens within the Refuge System. Our mission 
is to protect wildlife and manage wildlife, and while we do 
have an expanding visitation--we are approaching 40 million 
visitors a year now--the opportunities for us to do these kinds 
of things are fairly limited within the Refuge System, but this 
is an important new tool, and I do think that if we had a new 
tool, and the mangers knew they could go into a concession 
contract, and they could have a relationship with a business 
where the revenue was going to come to the refuge and was going 
to support that activity, the managers would be more 
comfortable with it, because they could say, ``Maybe I can get 
my law enforcement officer paid from some of these revenues,'' 
or ``I will not have to build a trail and have my maintenance 
worker maintaining the trail system to support the concession 
operation.''
    So I think that if we have legislation like this, our 
managers will look at public use a little bit differently and 
look to forge new kinds of partnerships with business to 
provide those services.
    Mr. Underwood. Thank you, and thank you, Mr. Campbell, for 
your testimony. I have never met anyone from the Okefenokee, 
but I have heard a lot about it. So thank you.
    Mr. Souder. [Presiding.] We are glad that you wear a beard, 
because that is what we think people from the Okefenokee do.
    [Laughter.]
    Mr. Souder. I want to come at the question that Mr. 
Underwood asked slightly differently. Currently--and Mr. Ashe 
and Mr. Hinds, maybe you can answer this, and then I would like 
to know how this would differ, because it is confusing--
currently, Fish and Wildlife determines which buildings and 
structures should be maintained and repaired; is that not 
correct?
    Mr. Hinds. That is correct.
    Mr. Souder. How would that change under the bill, because 
wouldn't the concessionaire still have to get that cleared?
    Mr. Hinds. Mr. Souder, that particular aspect would be 
handled under the actual contract instrument. In other words, 
when we sit down to negotiate the deal with the concessionaire, 
at that time, the Fish and Wildlife Service will dictate what 
buildings will be maintained, what trails will be maintained, 
and the dollars will be negotiated as to what those maintenance 
costs are and how they will be handled in the contract as 
payment to the Government.
    So we have the ability to regulate that through policy and 
through your law.
    Mr. Souder. In other words, a concessionaire cannot all of 
a sudden decide he is going to put a new trail in, put a new 
building in, or a new canoe concession?
    Mr. Hinds. No. That is correct. That would still be under 
the full control of the refuge manager, the Fish and Wildlife 
Service; and again, any of those uses would have to first go 
through the compatibility determination process.
    Mr. Souder. And if the Fish and Wildlife Service determined 
that they wanted a building in fact eliminated, that would be 
negotiated in the contract--in other words, if there were 
something that you felt was incompatible with a new nesting 
area, this bill does not restrict your ability to remove that 
if that had been negotiated in the contract--in other words, 
the decisions are not ultimately being made by the 
concessionaire. We are trying to get more dollars into the 
hands of the concessionaires to maintain what they have, not to 
give them decisionmaking power to put new things in.
    Mr. Hinds. That is correct. Under the present instruments 
that are used, the contract instruments, should we choose 
because of a new endangered species that pops up or something 
that we have to stop that use, within the contract, there are 
terms and conditions under which we compensate the 
concessionaire for the building of the building and then the 
loss of the building. In other words, they amortize the loss.
    So that yes, we still have full control over it.
    Mr. Souder. Mr. Hirsche, could you give your example again 
of something that was not related to visitor services? I did 
not understand it. I apologize.
    Mr. Hirsche. The example was this. Throughout the system, 
you have examples of water control structures, impoundments, 
holding impoundments, which are broken down as a result of the 
massive maintenance backlog. As we read in this legislation, 
language is so broad for how these monies could be applied that 
dollars could be applied to this for repair--
    Mr. Souder. Okay, I understand that. Let me ask the 
question. Currently, the way concessionaires operate in the 
wildlife refuge, couldn't money from the concessionaire be used 
for that?
    Mr. Hirsche. I do not--I would not be able to answer that 
question. Dan--
    Mr. Souder. In other words, do you have any restrictions on 
any money currently that you get from the concessionaire?
    Mr. Ashe. If we have a typical concession contract now, and 
we are receiving revenue, whenever a refuge manager receives 
revenue, his duty is to put it into the National Wildlife 
Refuge Fund, and that money then goes to payments to counties. 
So we are restricted now, but as I said, there are ways around 
that, and that is where we get into the small tools thing. In 
the case that I was describing to you before, we have a 
cooperative agreement with a rather large business, and it has 
caused problems because it is not a very sophisticated tool. So 
we used that model so that we could keep revenue on the 
station, and it has caused great problems both for us and for 
the business enterprise.
    So managers will try to be creative and get around the 
requirement to deposit revenues into the fund, but in the case 
that Evan outlined, today, under a concession contract, you 
could not take some of those revenues and invest them into 
maintenance of a waterfowl impoundment without some very 
creative and perhaps inappropriate movement of money.
    Mr. Souder. You have partly confused me additionally and 
partly answered the question. Let me see if I understand this. 
What you are saying is that you technically cannot use 
concession money to do other types of improvements on the 
refuge in addition to visitor services, but because this puts 
tremendous pressure on the refuge, you come up with creative 
ways to do those kinds of things in that the concessionaire can 
make improvements that might not be credited to him--
    Mr. Ashe. Right.
    Mr. Souder. --and therefore, this is more straightforward--
    Mr. Ashe. I will be more blunt with you. We have authority 
to accept donations, so in most cases, what a manager would do 
if he wanted to keep the revenue on board is strike a deal with 
the co-operator and say, ``You agree to make a donation to 
maintain the facility and keep this going up to a certain 
level,'' and it is within the law, but then it is a difficult 
thing to enforce. If we get into a situation where the co-
operator is not performing, it becomes very difficult for us to 
enforce, because in a legal sense, all they are doing is making 
a donation.
    So we do not have the right tool. It would be much better 
to have concession contract authority where we have very 
specific agreements, as Lou has outlined here, that a 
concessionaire says ``As part of the business plan, we will do 
this, this, and this,'' and that is part of the payment to the 
United States Government. Then, if there is nonperformance, we 
can go back under the terms of the contract and enforce that 
nonperformance. So it is a much bigger tool to use.
    Mr. Souder. And finishing up this line of questioning, let 
me go to a broader question again. If I understand--because the 
goal of the legislation is to try to clean up some of this 
process and make it more straightforward--but coming back to 
this broken water control project again, my understanding--and 
I am flexible in this--but I thought that part of this, modeled 
after what the Park Service does, is that in effect the 
concessionaire bids a percentage that they are going to pay 
based on the agreed-upon amounts of things that you are going 
to have them deal with directly as opposed to paying a fee--so 
in some areas it might be 10 percent, in some areas it might be 
2 percent, depending on what they think the revenues are going 
to be combined with what they are being asked to do. That is 
correct so far, right?
    Mr. Ashe. Yes.
    Mr. Souder. Then, the next question is on that amount that 
is coming to the refuge, why shouldn't the refuge be able to 
decide whether or not they want to put the additional dollars 
into things other than visitor services if in fact the 
concessionaire is being asked to, with their percentage and 
what they are bidding, address the visitor services question?
    Mr. Ashe. I think that that is a fair question that you 
ask. I think that as you get further away from the visitor 
services context, it does raise additional concerns that a 
manager might be entering into this agreement for the purpose 
of supplementing the budget for the station as opposed to a 
specific plan to provide for high-quality visitor services.
    I can imagine a context where a concessionaire might say 
``That impoundment is not working, so there are no birds there, 
and I do not have customers unless you have birds in that 
impoundment.'' So I can envision a case where work on an 
impoundment might be a necessary element of a visitor services 
experience at a particular refuge, but I think we need to make 
sure that that is the decisionmaking that is going on, and that 
it is not a manager saying, ``I really need another biologist 
on my staff, so if I enter into a concession agreement over 
here and generate some revenue, I can get my biologist and 
supplement my budget.''
    That is not what we want managers to do, but we do want 
them to be able to sit down and, if an impoundment or some 
other wildlife management activity is a function of a quality 
visitor services program and public use program, that should be 
within the realm of possibility.
    Mr. Souder. I want to yield back to Mr. Underwood again, 
but I want to put this thought out there. I am struggling with 
this logic, because my understanding is that if there are 
things that are directly visitor services, they should be in 
that contract, and if you want to do other things, that is 
fine; but the way we do it in the Park Service, they are not 
restricted in the concessionaire fee just to use those things 
for visitor services. In fact, it has been a supplement. I do 
not think an individual park director any more than a wildlife 
refuge manager can suddenly decide to do something without 
clearance from above because he has additional cash; you still 
have a check and balance system, particularly if it would 
affect things in his refuge. But part of this is in fact to 
enhance the refuge, both the visitor services, and presumably 
visitor services are at least somewhat connected to the quality 
of the refuge. We do not want to have a situation where we have 
great visitor services and a lousy refuge. That would be all 
backward.
    The irony here is that we are talking as though the visitor 
services are a higher standard than maintaining the park or the 
refuge.
    Mr. Ashe. I think they are not, and in some regards, the 
analogy to the Park Service is a good one, in some regards not. 
I can see in the case of the Park Service where money going 
back generally into the operation of a park makes more sense, 
because the purpose of parks is recreation; their fundamental 
purpose is to provide recreational opportunity for Americans. 
Our fundamental mission is conservation of wildlife, so we have 
to be more careful as we think about the intermingling of the 
objectives. I think we need to maintain a greater degree of 
separation between public use and resource management than the 
Park Service does. And there is some crossover; there 
definitely are some places where resource management is needed 
to support quality visitor experience, and we need to provide 
flexibility for managers to make those decisions, but not too 
far.
    Mr. Souder. Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    Basically, I do not really have a series of questions, but 
I did want to offer the observation that I would like to see 
something come from the National Park Service in terms of their 
implementation of this process to see what kinds of problems 
they have experienced.
    I would assume that in those refuges that you have a series 
of activities and responsibilities that you have to carry out 
regardless of whether you have a concession or not. So 
contracting out certain things and allowing concession provides 
an opportunity to supplement but certainly not to supplant your 
activities. So I guess we are trying to find out exactly what 
is the meaning of ``supplement'' in this particular case. It is 
sort of difficult. I guess the only thing I can compare it to 
is when I used to as an educator try to get Federal grants, and 
they always had in there a series of caveats that were 
``supplementing and not supplanting,'' and I do not know 
whether that has any kind of real clear definition, but in this 
instance, ``supplement'' does mean something as well; it does, 
in my estimation, mean going somewhat a little bit beyond a 
tightly-wound definition of visitor services.
    I just wanted to ask Mr. Campbell, in your line of work, is 
there an industry-wide support organization, and have they 
taken a position on this, or are you just representing your 
concession at the Okefenokee?
    Mr. Campbell. I am not aware of any industry-wide 
associations. We have a State association in Georgia, the 
Georgia Nature-Based Tourism Association, which includes some 
concessionaires on both State and Federal operations, but it is 
a small association and has not taken any kind of formal 
position, so there is no professional association.
    Mr. Underwood. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Souder. I need to get a little more input on the 
earlier question, because somehow this seems backward to me. 
Mr. Hirsche in effect has said he wants the dollars used for 
visitor services. Is that not correct?
    Mr. Hirsche. That is correct.
    Mr. Souder. Yet the difference when I asked about the Park 
Service was that the Park Service could use these things for 
other visitor services--recreation. In fact, a biologist is not 
related to visitor services. A water control gate that needs 
repair--now, we can argue whether it should be repaired, but 
that is a decision that is at a higher level--obviously, it 
cannot be used--under current and under Mr. Hirsche's 
suggestion of a change would be to limit it to visitor 
services. What I am asking is what is wrong with having it so 
that it can be used for something that is not recreation-
oriented or visitor service-oriented, but is actually related 
to preserving habitat or helping the things that are supposed 
to be protected in the refuge, such as a biologist or for 
research. I do not quite understand the objection. I am not 
saying that it should not be used for visitor services, and in 
fact one of the other questions I have is what happens if the 
estimate of what the concessionaire was going to pay does not 
maintain visitor services the way you had hoped; how would you 
cover that? If you used all of your money on a biologist, you 
would not have the ability to cover; on the other hand, the 
stuff is not being maintained currently, either, so it is not 
necessarily a loss.
    Do you want to address that?
    Mr. Hirsche. Yes, I would like to address that. This is 
certainly an interesting dilemma. If I am a concessionaire, I 
am going to enter into a contract that will ensure that I have 
a good business model over the long haul. That means attracting 
more people, providing better and more services, and having a 
good outfit so people have a positive experience at the refuge.
    So--and Chip can respond to this further--as a 
concessionaire I would only enter into a contract where I knew 
that fees I am paying going back into the refuge are going to 
bolster my business in terms of reaching and involving 
visitors. So I do not think I would necessarily wish to see 
funds support a biologist if I did not see a direct 
relationship.
    I guess the point I am making is when a concessionaire 
comes in with a plan and says, ``Look, if we did this and this 
and this, and we repaired this water control structure, I can 
set up more trams, more operations, and generate more income. 
The refuge manager may see that opportunity as a good one, but 
the improvements may be secondary tasks to, for instance, a 
species recovery effort in a part of the refuge that is not 
going to be accessed by visitors.
    So I am not sure if I am articulating myself well here, but 
I think that ultimately, concessionaires are going to be 
interested in entering into contracts where the money is going 
back to support their concession. The issue is whether refuge 
managers are going to be willing, because of the allure of 
having some projects or needs addressed that are not 
necessarily top priorities, to go ahead with those simply 
because the concessionaire offers an opportunity.
    Mr. Souder. Unless somebody has a strong opinion, let me 
move away from that and make a brief statement, and that is 
that I hope--and this is what we are seeing in the parks, we 
are starting to see it in the forests and BLM, particularly in 
the wilderness areas of those, and we a certainly seeing it in 
the wildlife refuge--we are out of money, and we are running 
out at a faster rate every time we have incidents like last 
week; and we are going to dip in and basically wipe out what we 
were trying to do in paying off our debts regarding Social 
Security, and the budget pressure is going to be incredible.
    Yet every year, including under this administration in 
spite--and I am saying this as a conservative Republican--in 
spite of the official position that we are adding no new net 
lands, we are going to add new net lands, particularly areas 
around the country where we have less public ownership than in 
the West--in the Midwest, the East, areas of the South, we are 
going to be adding additional public lands because it has 
become increasingly important to the psyche of this country, 
the desire of this country, to have everything from places to 
hike, for preservation, as we build more, and it does not 
matter whether you are a conservative Republican or a liberal 
Democrat--we are going to be adding more cultural and 
historical and natural lands, which means there are going to be 
increasing amounts of public lands with a flat funding stream 
or less, depending on what subpart you are in. We need creative 
ways to address that. And while there might be temptations to 
expand and abuse refuges if they have the ability to bring in 
more concession revenue, the fact is that we have to find 
additional ways to do this without compromising the fundamental 
portions of the refuges, or some of the original purposes are 
going to break down themselves. The areas around the refuges 
are going to put more pressure on the refuges.
    We are not going to have the dollars in those refuges to 
understand the relationships of the outside to the inside if we 
do not have sufficient biologists, if we do not have sufficient 
research, if we do not watch where the migratory patterns are 
changing or the pressures on the water systems that are coming 
in. We are not going to have the Federal dollars with which to 
do that, and we are looking for increased ways to do it without 
turning every area into commercialization.
    So I have not been convinced by this debate, although we 
will continue to work with that.
    I have a few other questions if I may go ahead, Mr. 
Underwood.
    Mr. Underwood. Go ahead.
    Mr. Souder. How does this legislation affect the amount of 
money deposited in the National Wildlife Refuge Fund? I heard 
some mixed comments on that.
    Mr. Ashe?
    Mr. Ashe. The best that I think we can tell is that the 
immediate effect would be very negligible, because of the 15 
concession contracts that we have now, only three of them, I 
believe, are paying into the revenue-sharing fund, which raises 
an important question in my mind.
    Mr. Underwood. I have the same question; do you want to 
verbalize that a little?
    Mr. Ashe. It is about $200,000 is the total effect on the 
National Wildlife Refuge System Fund; the total available for 
revenue-sharing payments this past year was about $25 million, 
so it is a negligible impact.
    Mr. Souder. And the reason only three are paying in is 
because in fact the refuges need the money, and they are 
figuring out ways to get around it--would that be a fair 
statement?
    Mr. Ashe. Yes--I do not know. My guess is those managers 
are either unaware of the requirement or those are longstanding 
concession agreements, and at some point in time they had 
worked out some other arrangements. So my answer to you is I do 
not know. This is information that we have just gathered in the 
last couple of days, so all I can do is report to you the 
information; I cannot tell you why 12 out of 15 are not making 
deposits into the revenue-sharing fund.
    Mr. Souder. How do you think we should offset that 
$200,000?
    Mr. Ashe. In the current budget for 2002, both the House 
and the Senate have increased the appropriations for the 
National Wildlife Refuge System by about $5 million each. So I 
think the best way is probably the traditional way, which is to 
appropriate additional dollars.
    It is a much larger question, Mr. Souder, but it is one I 
would pose to the Committee and the Subcommittee, and that is 
that perhaps we need to take a look at how the revenue-sharing 
program is structured as a whole. In the case of a refuge like 
Okefenokee, where that refuge is generating significant 
economic benefits for the surrounding community, or a refuge 
like Ding Darling in Florida, which is generating significant 
economic benefit, maybe we should be questioning whether we 
need to make a revenue-sharing payment.
    Congressman Jones was here before, and we have a refuge 
like Alligator River in Hyde and Tyrrell County in North 
Carolina, very economically depressed counties. Those revenue-
sharing payments are very important to those communities.
    So maybe we need to take another look at how the revenue-
sharing program is structured as well.
    Mr. Souder. Would you oppose having all concessionaires pay 
into this fund?
    Mr. Ashe. If you make the concessionaires pay into the 
fund, you defeat the purpose of making the revenue available to 
the refuge, or you diminish it in any regard, so--
    Mr. Souder. In other words, in effect, you have less money 
to use.
    Mr. Hinds. Yes, correct.
    Mr. Souder. Let me ask the question a different way and 
instead bounce off of--in the testimony that you presented, Mr. 
Ashe, you raised the 80-20 fee that we have in the National 
Parks. Certainly if we did the 80-20 on top of this, we are 
actually headed in the wrong direction. In other words, there 
will be less money for repairs and maintenance if you did 80-20 
plus had to put the funds in all concessionaire agreements into 
local offset.
    Mr. Ashe. I think the issue of 80-20 is related to 
maintaining some kind of ability to provide oversight of a 
national concession program, and the same was true for the fee 
demonstration program that Congress initiated several years ago 
for public lands of which the Refuge System is a part. That 
legislation allows 100 percent of the revenue to stay on the 
station, but provides that up to 20 percent can be retained at 
the regional or national level. So there is also a similar 
model in the fee demonstration program. But that would result 
in less dollars remaining at the station, clearly, and in some 
cases in the Fish and Wildlife Service with the fee 
demonstration program, we have allowed all the revenues to stay 
at the station rather than taking any at the regional or 
national level.
    So that requirement clearly would pull dollars away from 
the field station, but I do believe, too, that there does need 
to be some kind of ability to oversee this kind of program so 
we make sure that the kinds of problems that have happened in 
the Park Service concession program and the kinds of concerns 
that Evan has raised in his testimony do not take hold as we 
build a bigger concession program within the Fish and Wildlife 
Service and the Refuge System.
    The question about the revenue-sharing fund is a more 
difficult question, and I guess I do not believe that the funds 
from these concession contracts should go into the revenue-
sharing fund. I think we need to find other ways to deal with 
the issues pertaining to payments to counties under the 
revenue-sharing fund, both by direct appropriations and also by 
looking at the possibility, as I said, of restructuring the 
approach that we are taking to making revenue-sharing payments.
    Mr. Souder. What if the funds not used in maintenance went 
into the revenue-sharing fund?
    Mr. Ashe. Portions of the payments that were not used for 
maintenance went into the revenue-sharing fund? You could do 
that. I think what that would do is create a very strong 
incentive on the part of a manager to come up with a lot of 
maintenance projects.
    Mr. Souder. I think that that might happen as well, which 
could be good or bad, depending.
    Mr. Hinds?
    Mr. Hinds. Congressman Souder, if I might, if I could put 
some numbers to this to bring it a little bit more into focus, 
as Dan Ashe said, there are about $204,000 right now going into 
the revenue-sharing payment from the three refuges that are 
currently inputting that money. Divided out, there are 780 
counties that are receiving that money. If you do the math, it 
comes to about $256 per county on average that would be reduced 
at this time.
    However, when you look at what a concession can provide to 
a county like Ding Darling, where I thought I was going to have 
to close down our concession at one time because of the lack of 
maintenance funds, and I went to the county and asked them, 
``How much is the Ding Darling concession worth to you?'' I 
thought they were going to come back with a number of $2 or $3 
million. I was staggered in Florida when they came back and 
said approximately $54 million in direct and indirect costs.
    That is what a concession operation that is properly run 
and maintained, to a degree--again, I thought I was going to 
have to close it down--but that is what it is worth to the 
county.
    So with these things, even though there may be some short-
term losses in revenue-sharing funds to the county, the long-
term gain to the county is better economic health, and that is 
the point I would like to make.
    Mr. Souder. I want to pursue just a couple of other brief 
lines of questioning, because this is very helpful as we plunge 
into this. It is the first real airing of something that we 
have been talking about for a long time, and I appreciate your 
patience.
    I spent a fair amount of time over the last two summers 
working with some of the National Park questions and have some 
real strong concerns with the demonstration and how it is being 
handled. So let me ask some fundamental questions first about 
the fee structure. In the fee structure, if someone enters--I 
know that at Ding Darling, it is $5 when you come in--is that 
true at most refuges? Is there any kind of fee? I have been in 
some where there is no logical collection place.
    Mr. Ashe. At most refuges, there is no kind of fee or 
controlled entry program. If you have a duck stamp or a Golden 
Eagle Passport, you get access to all refuges. But at most of 
our refuges, we do not have high enough visitation or 
controlled access points where you can do what we do at Ding 
Darling or at Chincoteague.
    Mr. Souder. So, there are very few places where that is a 
revenue source.
    Mr. Ashe. True.
    Mr. Souder. And there are not that many places where 
concessions are a revenue source--it was something like 40. One 
of the goals of the demonstration fees was to try to have more 
parks, particularly a lot of the larger parks where they have a 
lot of visitation, get dollars in by using the concession fees. 
In some places, it has worked well, but in other places, having 
the passes is undermining that goal. Particularly, the more we 
promote the pass, the more the money is not going to the park. 
They are now taking an increased advertising fee out of the 
demonstration fee, plus they want the 20 percent in, and all of 
a sudden, people who had banked and made their assumptions and 
their budgeting on that are having problems. Similar things can 
occur in concession fees in planning.
    One of the fundamental goals in introducing the bill was to 
have more control at the individual refuge level and more 
flexibility, and not in effect have the Federal Government in 
Washington and in Congress then figure out how to cover the 
other areas, which is kind of what you are arguing on some of 
this local fee question, in addition to the argument that, 
look, if they have a concessionaire, they are actually going to 
gain more than they are going to lose in the matching fees, 
because the property taxes, the State income taxes, the payroll 
taxes that come out of an expanded concessionaire business are 
going to exceed the amount of fees that are lost.
    In the Park Service, one of the things we had in the 
demonstration fees, for example, the 80-20 argument, was that 
in effect, Yellowstone could help pay for the Apostle Islands, 
where the Apostle Islands do not have a logical place to get 
in. This is kind of a difficult accounting system in the sense 
that if in fact we put this to where we are underwriting part 
of the national program, with the exception of Ding Darling and 
maybe Okefenokee and a few other places, we are not talking 
about having lots of dollars coming in from concessionaires--is 
that not true?
    Mr. Ashe. I think that is true. The differences are orders 
of magnitude.
    Mr. Souder. We are not looking at hotels.
    Mr. Ashe. In the fee demonstration program, we bring in 
about $5 million a year. The Park Service brings in, I think, 
about $140 million a year. So we are looking at orders of 
magnitude difference. I am sure the same is true with 
concession contracts and agreements. In our context, it is 
going to be a small element of our annual operating and 
maintenance, but it can be important on some stations. Most of 
that $5 million that we collect comes from a very few--we have 
almost 100 refuges in the fee demonstration program now, and 
probably 90 percent of that $5 million comes from 10 refuges. 
And I imagine concession agreements would be the same--they 
will gravitate toward the refuges where we have high 
visitation, controlled access, so the same will be true in the 
end.
    But we cannot have it both ways. We cannot have money going 
into the revenue-sharing fund and going into maintenance at the 
ground level. It is a one-for-one tradeoff--either concession 
contracts provide money to go into the revenue-sharing fund, or 
they allow flexibility at the station level to get the work 
done.
    I think I am with you, Congressman Souder. I want that 
money to go onto the ground to do things. That does mean that 
we are making a compromise, and we are agreeing that that money 
will not go into the revenue-sharing fund, but I do believe 
that that is a sound investment, and it is an investment that 
we should be making at this point in time.
    I think that increasingly, local governments--as you said, 
people support acquisition of land. There was a time when the 
mindsets were different, and when we went in to buy a piece of 
land, we had to convince people that Federal ownership of land 
is an economic benefit, and the establishment of a refuge or a 
park is an economic benefit. We do not have to do that so much 
anymore. In some communities, in some counties, those revenue-
sharing payments are very, very important. In other places, 
they are less important.
    Mr. Souder. I wanted to ask another question. Mr. Hirsche 
raised the question of the associations getting at least 
priority, if not a commitment that they could have first crack 
at certain concessionaire services--``friendship'' groups.
    In the visitor centers and in the book sales and other 
things--I know, for example, at Ding Darling, the ``friends'' 
group built the new visitor center--is that already basically 
not done for certain things, and could you go through some of 
the difficulties of how this might relate to other types of 
things like providing canoes or food services as opposed to the 
traditional ``friends'' groups?
    Mr. Hirsche. Yes. In this case, we are talking about a 
range of local organizations that have varying levels of 
sophistication and expertise. At Ding Darling, the ``friends'' 
group down there is truly remarkable in what they have 
accomplished in terms of raising money and setting up programs. 
On other refuges, you have ``friends'' groups that are not as 
large, not as successful in fundraising, and would likely pass 
on a concession opportunity.
    But I could see a number of situations around the country 
where a ``friends'' group would be interested in pursuing a 
concession opportunity. And again, as we indicated in our 
testimony, there is a dual benefit to allowing that--and to be 
fair, I think most refuge managers, would choose to partner 
with the friends group, saying ``This is great; let us go with 
it,'' before bidding it out. But I am not sure what the 
guidelines would be along those lines in terms of bidding for 
contractors or concessionaires.
    Mr. Hinds. Although I somewhat agree with Evan that it 
would be nice to allow our ``friends'' groups the ability to 
have the first option, it is not practical, and I will give you 
the reason why as it relates to Ding Darling.
    Concessions are businesses which require investment. Banks 
are very leery of giving large sums of money to 501(c)(3) 
organizations that do not have collateral property or whatever 
to back up that loan.
    At Ding Darling, they went out and got donations from the 
public, but would have liked to proceed much faster. They went 
to the bank and asked, ``Would you give us a loan for 
$250,000?'' and the bank said, ``Sure, but you have no 
collateral. Therefore, you as individual members of the board 
must put up your homes as the collateral.''
    They did not want to do that. I do not blame them.
    The same thing would happen with a business investment like 
a concession where a refuge manager--I will give you an 
example--Loxahatchee. Loxahatchee, under a State agreement with 
Florida, needs to provide for visitor services. That was part 
of the agreement when establishing Loxahatchee. They have not 
been able to do that because they do not have the capital. Your 
bill would allow them to do that by asking the concessionaire 
in the contract to build the facility.
    What that concessionaire would then do is, in the contract, 
build the building, and over the 10 years, amortize his losses 
over that 10-year period, because there is a building there, 
and he has a business. Banks are willing to do that. That is a 
long-term investment with the Federal Government. We are not 
going away.
    However, they are not willing to do that with 501(c)(3) 
organizations, so even though I agree with Evan that it would 
be nice, it is not practical.
    Mr. Souder. Mr. Campbell, did you have a comment?
    Mr. Campbell. There are several things I have thought of. 
One of them is--not specifically to this issue--the question of 
whether funds would need to return to something that directly 
benefitted my business. I do not know that that is necessarily 
a sound assumption. I would not necessarily require that. Right 
now, everything that I am paying in is going offsite, and I am 
not seeing anything returning to the refuge that I live on and 
operate day after day. Almost anything that worked to benefit 
that refuge and was being paid for out of my fees would be A-
okay with me. In the long run, either directly or indirectly, 
it is going to return; it is going to accrue value to me as a 
business and as someone who personally supports the refuge.
    Now, as far as giving ``friends'' groups the first crack at 
it, what Lou mentions is true. Banks are really leery of making 
investments that are not collateralized. Our investment in the 
concession that we operate at Okefenokee is collateralized by 
our personal assets, and we had to be able to demonstrate that 
in order to put the bid in on the concession in the first 
place. So we are pretty deeply vested in that.
    I would not have any philosophical objection to seeing 
``friends'' groups getting first crack at it. I do see some 
real financial hurdles there to overcome.
    Mr. Souder. Mr. Hirsche?
    Mr. Hirsche. If I could respond to that, with respect to 
Chip's first comment, I think that if we are talking about 
establishing profitable concessions at quite a few more refuges 
around the country, Okefenokee and Ding Darling are two 
examples of refuges that are readymade, and setting up a 
concession--I will not say it is easy--business is never easy--
but you have a nice starting point. At other refuges in the 
country, you are going to want to negotiate a pretty good deal 
if you are going to set up a concession there. And if I were a 
concessionaire, if I were in business, I would say, ``Look, I 
want to see my fees returned to support what my concession is 
trying to accomplish as part of a successful business plan.'' 
That would be my response.
    In terms of the ``friends'' groups, I think the collateral 
argument is a good one, but I would again go back to the point 
that different ``friends'' groups have different levels of 
capacity and ability, and certainly the beauty of ``friends'' 
groups is that the individuals in those groups represent an 
incredible cross-section of individuals, and some people are 
very wealth, some people are not; they come from all political 
backgrounds. So you may have that opportunity for somebody who 
is willing to provide the collateral. But again what we are 
talking about here is a right of first refusal rather than 
immediately dictating that these people get the concession.
    Mr. Souder. I want to thank each of you for your testimony. 
I am sure that we will be following up as we move this bill.
    I want to reiterate that part of the reason I am interested 
in this is to make sure that we look at creative ways to make 
sure there are dollars in this, that people have access to the 
beauty of the wilds yet at the same time that we do not 
undermine the fundamental purpose. And I think that some of the 
very types of concessions that we may be talking about, even if 
they are visitor centers or food, may actually add land to the 
edge of the existing center so it does not impact the wildlife 
but provides additional dollars for the protection of the areas 
themselves. So we have to look at creative ways to do it. I 
have seen in the park system and increasingly at edges of the 
Fish and Wildlife and the Forest Service very creative ways to 
do this.
    At Rocky Mountain National Park, they have a new visitor 
center at the edge of the park where the concessionaire built a 
multi-million-dollar visitor center, but part of the deal was 
that to get to the restrooms at the visitor center, you have to 
go through his gift shop and through the restaurant. It was one 
of the main negotiating contentions, because he could afford to 
build the visitor center for free and have it connected if in 
fact he was assured a certain amount of traffic. It does not 
impede the park, yet it is generating--they have a new visitor 
center, and the ``friends'' group is operating the book store 
in the visitor center, and it works out well.
    We see lots of areas like that with potential to get 
additional dollars from Americans who are willing to spend if 
they know their dollars are being used for that refuge. They 
are a little less concerned or willing to just put dollars 
generally, not knowing where they are going to go. We have 
almost zero objections to the fees being charged at parks and 
refuges. Compared to the cost of going to a concert or to an 
amusement park, it is minimal. You feel that the investment is 
going back into protecting the resource. So I think there are 
tremendous opportunities.
    Charles Russell Wildlife Area in northern Montana does not 
have many people go through it, but it is one of the last open 
areas in the Missouri Breaks area, and there is potential for 
certain things that can be done.
    In Indiana, every inch of public land is a battle, but 
things like Mishawaka, and as we look at the areas in northwest 
Indiana which used to all be wetlands and try to look at how 
that can be preserved, unless we have ways to figure out how to 
do this, it is not going to happen, and unless there is a 
broader base of public support, it is not going to happen.
    So thank you for your testimony. I appreciate it and look 
forward to working with you.
    We will include for the record a statement from Mr. Gerald 
Hoffman from Tarpon Bay Recreation at Sanibel Island, who is a 
very creative concessionaire whom I have used a number of time. 
He was not able to make it because of the tropical storm. With 
that, we will forgive him. That is a pretty good excuse for not 
showing up for a congressional hearing.
    Mr. Souder. With that, the Subcommittee stands adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]
    [The prepared statement of Mr. Hoffman follows:]
    [GRAPHIC] [TIFF OMITTED] T5254.001
    
                                   - 

</pre></body></html>
